Case: 2058 Document: 4-2 Filed: 06/23/2020 Page: 1

No. 20-1458

 

FILED
UNITED STATES COURT OF APPEALS Jun 23, 2020
FOR THE SIXTH CIRCUIT DEBORAH S. HUNT, Clerk

UNITED STATES OF AMERICA, )
)
Plaintiff-A ppellee, )
)

v. ) ORDER
)
RICHARD KNIDER JACKSON, )
)
* Defendant-Appellant. )
)

Before: CLAY, ROGERS, and MURPHY, Circuit Judges.

This matter is before the court upon initial consideration to determine whether appeal
No. 20-1458 was taken from an appealable order. On January 16, 2020, a jury found Richard
Knider Jackson guilty of a sex-trafficking offense and three drug offenses. Following the verdict,
Jackson renewed his motion for judgment of acquittal as to the sex-trafficking offense and filed
motions for replacement counsel, for an evidentiary hearing, and for a mistrial. The district court: --
denied the motions by order entered on March 30, 2020. On May 1, 2020, Jackson filed a notice

_ of appeal from the March 30, 2020, order (appeal No. 20-145; 8, the current appeal).

This court lacks Jurisdiction over appeal No. 20-1458. The imposition of a sentence is the
final judgment for purposes of an appeal in a criminal case. See Midland Asphalt Corp. v. United
States, 489 U.S. 794, 798 (1989); Flanagan v. United States, 465 U.S. 259, 263 (1984); United
States v. Yeager, 303 F.3d 661, 665 (6th Cir. 2002). No sentence has yet been imposed; therefore,

there is no final judgment in this case. No exception to the final judgment rule applies here.
Case: 20,78 Document: 4-2 Filed: 06/23/2970 Page: 2

No. 20-1458
-2-

Accordingly, appeal No. 20-1458 is DISMISSED for lack of appellate jurisdiction.

ENTERED BY ORDER OF THE COURT

th dh

Deborah S. Hunt, Clerk
